No, 20-828

 

IN THE

Supreme Court of the United States

FEDERAL BUREAU OF INVESTIGATIONS, ef al.,

Petitioners,
v.

YASSIR FAZAGA, et al.

On Writ of Certiorari to the United States Court of
Appeals for the Ninth Circuit

BRIEF OF PROJECT FOR PRIVACY &
SURVEILLANCE ACCOUNTABILITY
AS AMICUS CURIAE SUPPORTING
PLAINTIFF-RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,977 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 28, 2021.

 

Colin Casey Hog:
Wilson-Epes Printing Co., Inc.
